January 21, 2021
Writer’s Direct Contact
(213) 683-9188
(213) 683-5188 FAX
Mark.Yohalem@mto.com

Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Lindsay R. Cooper, et al. v. Tokyo Electric Power Company Holdings, Inc., et al.
No. 20-730
Motion to Extend Time to Respond to Petition for Writ of Certiorari by 30 Days

Dear Mr. Harris:
I am writing on behalf of Respondent Tokyo Electric Power Company Holdings, Inc.
(“TEPCO”) in the above-captioned case to request an extension of time of 30 days for the filing
of a brief in opposition to the petition for a writ of certiorari. This case was placed on the
Court’s docket on November 25, 2020, and on December 2, 2020, TEPCO submitted a letter
waiving the right to file a brief in opposition to the petition for writ of certiorari. On December
30, 2020, you issued a letter requesting that TEPCO nonetheless proceed to file a response on or
before January 29, 2021. Pursuant to Rule 30.4 of the United States Supreme Court, and given
the press of business, TEPCO respectfully requests a 30-day extension of time—up to and
including Monday, March 1—to file its brief in opposition to the petition for writ of certiorari.
This is the first extension TEPCO has sought.
Respectfully submitted,
/s/ Mark R. Yohalem
Mark R. Yohalem
cc:

All Counsel

